<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                      ENERGY AND WATER DEVELOPMENT
                        APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New 
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 TIM RYAN, Ohio                     KEN CALVERT, California
 JOHN W. OLVER, Massachusetts       RODNEY ALEXANDER, Louisiana  
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado            
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Taunja Berquam, Robert Sherman, Joseph Levin,
            James Windle, and Casey Pearce, Staff Assistants

                                ________

                                 PART 8
                NATIONAL NUCLEAR SECURITY ADMINISTRATION
                             BUDGET HEARING

                                   S

                                ________

         Printed for the use of the Committee on Appropriations



      PART 8--ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2010


                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New  
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 TIM RYAN, Ohio                     KEN CALVERT, California
 JOHN W. OLVER, Massachusetts       RODNEY ALEXANDER, Louisiana   
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado           
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Taunja Berquam, Robert Sherman, Joseph Levin,
            James Windle, and Casey Pearce, Staff Assistants

                                ________

                                 PART 8
                NATIONAL NUCLEAR SECURITY ADMINISTRATION
                             BUDGET HEARING

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 54-227                     WASHINGTON : 2010

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New 
 JOSE E. SERRANO, New York          Jersey
 ROSA L. DeLAURO, Connecticut       TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia           ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts       TOM LATHAM, Iowa
 ED PASTOR, Arizona                 ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina     JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island   MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York       JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California  MARK STEVEN KIRK, Illinois
 SAM FARR, California               ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois    DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania         KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey      JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia    STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas             TOM COLE, Oklahoma           
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2010

                                            Thursday, May 21, 2009.

NATIONAL NUCLEAR SECURITY ADMINISTRATION: NUCLEAR NONPROLIFERATION AND 
                                WEAPONS

                               WITNESSES

CAPTAIN THOMAS D'AGOSTINO, USN, RETIRED, UNDER SECRETARY OF ENERGY FOR 
    NUCLEAR SECURITY AND ADMINISTRATOR OF NNSA
BRIGADIER GENERAL GARRETT HARENCAK, PRINCIPAL ASSISTANT DEPUTY 
    ADMINISTRATOR FOR MILITARY APPLICATION
KENNETH BAKER, PRINCIPAL ASSISTANT DEPUTY ADMINISTRATOR FOR DEFENSE 
    NUCLEAR NONPROLIFERATION

    Mr. Visclosky. [Presiding.] Now that Mr. Simpson is here, 
we are ready to go. And we will call the committee to order.
    Today we are going to examine the budget request for the 
National Nuclear Security Administration and for naval 
reactors.
    The 2010 fiscal year budget request for NNSA is $9.945 
billion. The request for weapons program is about $6.4 billion, 
essentially flat. Nuclear nonproliferation request is $2.1 
billion, also flat from previous years' appropriations, if we 
discount the inclusion of the MOX program.
    The national security requirements for the 21st-century 
nuclear force and a threat environment driven by smaller, but 
very serious multiple threats are very different from the 
national security requirements of our legacy nuclear force, 
which is driven by a bipolar environment of the Cold War.
    We need to transition to a 21st-century force as soon as is 
economically and technically possible. And we would urge the 
administration to focus on this transition with a clean-sheet 
approach, free of reflective ties to past policies.
    We are waiting for the Nuclear Posture Review to set the 
frameworks of this transition. In the interim, NNSA is 
deferring a number of major capital projects in order not to 
risk taxpayers' money on a decision that may be reversed. The 
delays of capital improvements programs enable you to focus 
your resources on maintaining your workforce, which is a 
fiscally responsible and prudent strategy.
    The committee has made clear that we recognize the need for 
a restructured weapons complex, but one commensurate with the 
size and types of weapons needed in the future, based on an 
overall re-evaluation of our nuclear policy in the post-Cold 
War.
    The nonproliferation fiscal year 2010 budget request of 
$2.1 billion continues the progress to reduce the threat of 
nuclear nonproliferation. Advancing national efforts to prevent 
the spread of nuclear weapons globally is an important aspect 
of the NNSA mission.
    States and terrorists continue to seek nuclear weapons and 
materials. Nonproliferation programs that work cooperatively to 
secure and detect nuclear materials are the best to approach 
this threat.
    Addressing this menace in all of its dimensions, ranging 
from research and development and nuclear detection 
technologies to securing nuclear materials in far-flung 
locations, is one strength of the NNSA's nonproliferation 
programs.
    Gentlemen, I thank you very much for being here. And at 
this time, before recognizing you, I will certainly recognize 
my friend and ranking member, Mr. Frelinghuysen from the Garden 
State.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Administrator D'Agostino, welcome back to the committee.
    General Harencak and Administrator Baker, thank you for 
being with us this morning. We are all looking forward to your 
explanation of the NNSA budget request before us today.
    I do have some comments. Before I begin, let me make it 
clear I have great respect for the work of you and your 
colleagues at the NNSA.
    And I know and everyone else on this dais knows that the 
budget we will be considering today was developed under 
guidelines established by the White House and OMB. In other 
words, you are following their direction for the most part.
    However, in my view, the budget as submitted by the 
administration may have significant national security 
implications. I have some comments and questions along those 
lines and hope we will be able to have some frank discussions.
    Administrator D'Agostino, when you appeared before the 
committee to explain your position on the complex 
transformation, you asked for our patience. The administration 
needed time, you said, to run its deliberative process.
    The administration's fiscal year 2010 request for weapons 
activities seems to reflect the same plea. That request totals 
$6.3 billion, a mere $4 million above last year's appropriated 
request. In your own words, this represents a treading water 
budget for the program.
    Frankly, I find this situation troubling. National security 
matters serve more than a placeholder budget.
    I have to wonder whether the budget analysts at OMB who put 
together this request simply do not understand what the weapons 
activities account really does.
    If the President is successful--and we want him to be 
successful--in his vision to promote a broad, nonproliferation, 
and arms control agenda, this is the account that will actually 
pay for taking apart those weapons. And if he wants to make 
sure that the weapons that we have left are really safe and 
reliable, this is the account that will pay for that, too.
    And in the meantime, this is the budget that ensures that 
our Navy and Air Force have the reliable weapons that they need 
to fulfill their obligations to the American people.
    And this budget request did not seem to support the 
President's own initiatives or vision. What the administration 
sees as treading water, others will see differently. Your 
clients in the Navy and Air Force may wonder whether NNSA can 
fulfill its commitments, and I have doubts in that regard.
    Your contractors may see this as a sign that even more 
layoffs are coming to their communities. And your highly 
trained weapons specialists--and we have talked about these 
remarkable people--may see this as the last straw and may begin 
their exodus to more secure employment.
    And do I need to mention the need to recruit the next 
generation of these very qualified people?
    This committee has worked on a bipartisan basis for many 
years to rationalize activities funded by the weapons 
activities account. To have that work potentially undone by 
treading water--having a treading water budget seems unwise.
    Your nonproliferation budget is not much better, although 
the request--$2.137 billion--is $654 million above last year's 
appropriation, you have moved the MOX plant back into this 
account. The request for MOX and its related projects is $655 
million. In other words, you are decreasing the request for the 
non-MOX proliferation programs by $11 million compared to last 
year.
    This committee and others before it have been working for 
years to secure fissile materials overseas that in some cases 
was secured by only a padlock and part-time guard with no 
weapons.
    Finally, your naval reactors request at a little over $1 
billion is $175 million above last year's level. Most of your 
increase is due to the advanced work the Navy needs for the 
next generation reactors for the Ohio-class submarines.
    While we may question whether this money is needed this 
year, I am encouraged that NNSA is working closely with its 
client, the Navy, and asking for reasonable resources to 
fulfill that mission.
    Mr. Administrator, you know I consider the department's 
work to keep this country safe to be second to nothing. I hope 
you will be able to convince me today that this budget requests 
asks for the resources that you need to keep our weapons secure 
and reliable, to fulfill your commitments to our military and 
your workforce to make progress on fighting the spread of 
fissile material overseas.
    As it stands now, I am concerned with what you have 
proposed. And I hope that we can find out today exactly your 
rationale for what you have proposed.
    But, again, I thank you, gentlemen, for appearing and for 
the opportunity to make this statement.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Gentlemen, thank you very much.
    And before I recognize Mr. D'Agostino, because I believe 
you will have the only testimony this morning, I would 
recognize Brigadier General Garrett Harencak. He is the 
principal assistant deputy administrator for military 
applications. Brigadier General Harencak is the principal 
assistant deputy administrator for military applications in the 
Office of Defense Programs at the Department of Energy's 
National Nuclear Security Administration.
    Prior to joining NNSA, the general was the commander of the 
509th Bomb Wing at Whiteman Air Force Base in Missouri. He has 
a long and distinguished record of service to this country and, 
obviously, is a really smart person, because he graduated from 
the United States Air Force Academy.
    We also have with us Mr. Ken Baker, who is the principal 
assistant deputy administrator for NNSA's Office of Defense 
Nuclear Nonproliferation. Mr. Baker is a principal assistant 
deputy administrator for these very important programs.
    And, again, I would point out for those in attendance that 
he is the recipient of the Defense Distinguished Service award, 
the Defense Superior Service award, and two Defense Meritorious 
Service awards. He has also received two President's 
Distinguished Awards for Senior Executive Service at the 
Department of Energy and has also made a significant 
contribution in service to his country.
    And I am very happy that you are here.
    Mr. D'Agostino and I have a relationship. He has been 
introduced before, but would note again that he is a graduate 
of Johns Hopkins University, as well as the United States Naval 
Academy.
    I look forward to congratulating him this fall on Navy's 
victory over Notre Dame in football--fencing is another story--
and, again, would point out that his predecessors were all very 
good men. They were all very able and very intelligent, but 
from my personal perspective, not that we have agreed on every 
last issue, Tom has been the best. And I am very happy to still 
see you here.
    Captain D'Agostino. Thank you very much.
    Mr. Visclosky. So, with that, I would recognize you for 
your prepared statement. And all of it will be entered into the 
record.
    Captain D'Agostino. Thank you very much, Mr. Chairman and 
Ranking Member Frelinghuysen, members of the subcommittee.
    I am Tom D'Agostino. I am the administrator for the 
National Nuclear Security Administration. As the chairman 
pointed out, I am fortunate to have Brigadier General Gary 
Harencak with me, running defense programs, and Mr. Ken Baker, 
running the nonproliferation program. These are the major 
elements of the NNSA. We have a number of other program 
elements, but with these two gentlemen, I think we are in good 
stead, as we get settled out on how things pan out politically 
with the political leadership out in the future.
    But we do appreciate the opportunity to appear before you 
today. And we sincerely thank you for your support of NNSA's 
nuclear security programs, as we address challenges--addressing 
the Cold War challenges that we have had and, more importantly, 
shaping the program for the future.
    The NNSA is critical to ensuring the security of the United 
States and its allies. The President's fiscal year 2010 budget 
request for NNSA is $9.9 billion, an increase of 8.9 percent 
over the fiscal year 2009 appropriated level. This budget 
request provides funding to enable NNSA leverage the science to 
promote U.S. national security objectives.
    NNSA programs are on the forefront of the line of a number 
of national security endeavors: first of all, maintaining a 
safe, secure and reliable stockpile and the capabilities 
required to do that; next, accelerating and expanding our 
efforts here and around the world to reduce the global threat 
posed by nuclear terrorism, nuclear nonproliferation, and 
unsecured nuclear materials; next, providing the U.S. Navy with 
safe, military-effective nuclear propulsion systems; and, 
finally, supporting U.S. leadership in science and technology.
    The President has initiated bold steps to putting an end to 
Cold War thinking that will lead to a new international effort 
to enhance global security. The fiscal year 2010 budget request 
for the NNSA is a step--our first step towards implementation 
of this new strategy.
    For defense nuclear nonproliferation programs, increases 
are requested to expand and respond to opportunities to reduce 
global nuclear threats. Increases are also requested in the 
naval reactors program to begin development of the reactor and 
propulsion systems for next-generation submarines, among other 
activities.
    For programs in the weapons activities appropriation, the 
budget strategy is to maintain capabilities and activities at 
the current level until the strategic direction is established 
in the upcoming Nuclear Posture Review.
    In President Obama's speech in Prague, he indicated his 
commitment to maintaining a safe, secure and reliable stockpile 
while pursuing a vision of a world free from the threat of 
weapons. The NNSA maintains the unique knowledge and 
capabilities that are critical to achieving both of these 
objectives.
    Our nonproliferation programs are focused on securing the 
key ingredient of nuclear weapons, and that is, in essence, the 
weapons-usable materials and the related equipment and 
technologies.
    Supporting NNSA's efforts, including the elimination of the 
weapons-grade plutonium production program, which has been 
working in Russia to shut down Russia's plutonium production 
reactors, and the fissile material disposition program, which 
will provide a disposition path for 34 metric tons each of U.S. 
and Russian excess plutonium.
    The NNSA is a recognized leader on these and other 
nonproliferation initiatives to prevent proliferators or 
terrorists from acquiring a nuclear weapon. This includes our 
activities to secure and reduce weapons-grade nuclear material 
at sites worldwide, but also our efforts to detect and 
intercept weapons of mass destruction-related materials in 
transit.
    In addition, we will also work in fiscal year 2010 to 
support this president's call to strengthen the 
nonproliferation treaty, support the International Atomic 
Energy Agency, and strengthen international safeguards 
inspection.
    To implement this comprehensive nonproliferation strategy, 
we will expand our cooperation with Russia, pursue new 
partnerships, and work to secure vulnerable nuclear material 
worldwide and around the world within 4 years. This is a huge 
challenge; I am sure the committee is quite aware of the 
difficulty in being able to do that, but it is something that 
the president has established.
    NNSA's Global Threat Reduction Initiative and the 
International Material Protection and Cooperation Programs will 
have a major role in this 4-year effort.
    The NNSA is actively participating in the national debate 
over our nation's nuclear security and nonproliferation 
strategic framework. This debate is not just about the warheads 
and the size of the stockpile. It includes the inescapable 
obligation to transform our current Cold War-era nuclear 
weapons complex into a 21st-century nuclear security enterprise 
that retains the capabilities necessary to meet emerging 
national security threats and requirements that come from those 
threats.
    In a future with fewer warheads, no nuclear tests, tighter 
controls on nuclear weapons material worldwide, and effective 
counteraction of nuclear terrorist threats, the science and 
technology capabilities that you support in the NNSA will play 
an increased role in addressing these challenges.
    We must ensure that our evolving strategic posture and our 
nuclear stockpile, nonproliferation, arms control, 
counterterrorism programs are melded into one comprehensive 
strategy that protects America and its allies.
    The Department of Defense has initiated the Nuclear Posture 
Review, which is scheduled to culminate in a report to Congress 
early in fiscal year 2010. And we are actively participating in 
the Nuclear Posture Review in all of its aspects relating to 
our nuclear security.
    As you are well aware, the Commission on the Strategic 
Posture of the United States was established by Congress to 
identify the basic principles for re-establishing a national 
consensus on strategic policy. The commission has examined the 
role of deterrence in the 21st century and assessed the role of 
nuclear weapons in a U.S. national security framework.
    A final report was issued earlier this month and includes a 
variety of recommendations--findings and recommendations as to 
the most appropriate strategic posture for the United States. I 
am familiar with the commission's report. But given the breadth 
and scope of the commission's recommendations, the secretary 
and I are still in the process of evaluating the 
recommendations on a path forward. In the end, though, the work 
that the strategic commission has done will help to inform the 
administration as it develops its nuclear posture.
    As you know, we have made tremendous progress in reducing 
the size of the stockpile. The stockpile will be less than one-
quarter of what it was at the end of the Cold War, the smallest 
stockpile in more than 50 years. These reductions send the 
right messages to the rest of the world that the U.S. is 
committed to Article VI of the Non-Proliferation Treaty, which 
will help create a positive momentum heading into the 2010 Non-
Proliferation Treaty Review Conference.
    Each year since the Stockpile Stewardship Program was 
developed, we have been able to certify the safety, the 
security, and the reliability of those warheads without the 
need to conduct an underground test.
    And since 1993, we have acquired a suite of capabilities 
determined necessary to maintain an effective deterrent. And 
most recently, the National Ignition Facility has come online.
    In the end, the key focus is that we need to apply these 
tools to help solve not just the current problems we have in 
our stockpile--and there are current problems that we have and 
we are addressing them--but, more importantly, to utilize these 
tools to develop the people that we have in our program and 
ensure that we are able to solve future problems, that we can't 
anticipate all of the future problems, but we need to be ready 
to be able to do that.
    The challenge for the Stockpile Stewardship Program for the 
future will in the end be to make full and effective use of 
these tools and capabilities. Following the completion of the 
Nuclear Posture Review, we will prepare a 5-year plan which 
recapitalizes our infrastructure, retains our scientific, 
technical and engineering base, and makes full use of our 
experimental and supercomputing capabilities.
    Chairman Visclosky, numerous external reviews have 
identified the fragile state of our technical expertise and 
capabilities, particularly that reside in our people. It is 
clear to me that our people are our most important resource, 
and we need to retain those skills and capabilities and develop 
the next generation of scientists, engineers and technicians 
needed to perform work in nonproliferation, nuclear 
counterterrorism, and forensics. We also need the skilled 
personnel to maintain the stockpile for the foreseeable future 
without the benefit of underground testing.
    Mr. Chairman, that concludes my statement, and we would be 
pleased to take any questions that you may have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4227A.001
    
    [GRAPHIC] [TIFF OMITTED] T4227A.002
    
    [GRAPHIC] [TIFF OMITTED] T4227A.003
    
    [GRAPHIC] [TIFF OMITTED] T4227A.004
    
    [GRAPHIC] [TIFF OMITTED] T4227A.005
    
    [GRAPHIC] [TIFF OMITTED] T4227A.006
    
    [GRAPHIC] [TIFF OMITTED] T4227A.007
    
    [GRAPHIC] [TIFF OMITTED] T4227A.008
    
    [GRAPHIC] [TIFF OMITTED] T4227A.009
    
    [GRAPHIC] [TIFF OMITTED] T4227A.010
    
    [GRAPHIC] [TIFF OMITTED] T4227A.011
    
    [GRAPHIC] [TIFF OMITTED] T4227A.012
    
    [GRAPHIC] [TIFF OMITTED] T4227A.013
    
    [GRAPHIC] [TIFF OMITTED] T4227A.014
    
    [GRAPHIC] [TIFF OMITTED] T4227A.015
    
    [GRAPHIC] [TIFF OMITTED] T4227A.016
    
    [GRAPHIC] [TIFF OMITTED] T4227A.017
    
    [GRAPHIC] [TIFF OMITTED] T4227A.018
    
    [GRAPHIC] [TIFF OMITTED] T4227A.019
    
    [GRAPHIC] [TIFF OMITTED] T4227A.020
    
    [GRAPHIC] [TIFF OMITTED] T4227A.021
    
    [GRAPHIC] [TIFF OMITTED] T4227A.022
    
    [GRAPHIC] [TIFF OMITTED] T4227A.023
    
    [GRAPHIC] [TIFF OMITTED] T4227A.024
    
    [GRAPHIC] [TIFF OMITTED] T4227A.025
    
    [GRAPHIC] [TIFF OMITTED] T4227A.026
    
    [GRAPHIC] [TIFF OMITTED] T4227A.027
    
    [GRAPHIC] [TIFF OMITTED] T4227A.028
    
    [GRAPHIC] [TIFF OMITTED] T4227A.029
    
    [GRAPHIC] [TIFF OMITTED] T4227A.030
    
    [GRAPHIC] [TIFF OMITTED] T4227A.031
    
    [GRAPHIC] [TIFF OMITTED] T4227A.032
    
    [GRAPHIC] [TIFF OMITTED] T4227A.033
    
    [GRAPHIC] [TIFF OMITTED] T4227A.034
    
    [GRAPHIC] [TIFF OMITTED] T4227A.035
    
    [GRAPHIC] [TIFF OMITTED] T4227A.036
    
    [GRAPHIC] [TIFF OMITTED] T4227A.037
    
    [GRAPHIC] [TIFF OMITTED] T4227A.038
    
    [GRAPHIC] [TIFF OMITTED] T4227A.039
    
    [GRAPHIC] [TIFF OMITTED] T4227A.040
    
    [GRAPHIC] [TIFF OMITTED] T4227A.041
    
    [GRAPHIC] [TIFF OMITTED] T4227A.042
    
    [GRAPHIC] [TIFF OMITTED] T4227A.043
    
    [GRAPHIC] [TIFF OMITTED] T4227A.044
    
    [GRAPHIC] [TIFF OMITTED] T4227A.045
    
    [GRAPHIC] [TIFF OMITTED] T4227A.046
    
    [GRAPHIC] [TIFF OMITTED] T4227A.047
    
    [GRAPHIC] [TIFF OMITTED] T4227A.048
    
    [GRAPHIC] [TIFF OMITTED] T4227A.049
    
    [GRAPHIC] [TIFF OMITTED] T4227A.050
    
    [GRAPHIC] [TIFF OMITTED] T4227A.051
    
    [GRAPHIC] [TIFF OMITTED] T4227A.052
    
    [GRAPHIC] [TIFF OMITTED] T4227A.053
    
    Mr. Visclosky. Thank you. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Let me first echo the chairman's remarks 
about you, Mr. Administrator. Thank you for your service. 
Having you here is reassuring.
    Captain D'Agostino. Thank you.
    Mr. Frelinghuysen. We appreciate your professionalism and 
your knowledge.
    I know, General, you are the new man on the block. And we 
are highly appreciative of your service.
    As I said in my opening remarks, I think all of us on this 
committee consider the responsibility of the Department of 
Energy to maintain the safety and security and reliability of 
our nuclear weapons stockpile, that that is the most important 
thing.
    As I look over your budget, I notice that many of the 
programs that are involved with that responsibility have been 
held at the same funding level as previous years, although 
there have been some changes to what we call the sub-program 
lines.
    Obviously, taxpayer funding is a scarce commodity. Can you 
convince us that the amount of funding that we have in here 
will provide for that level of reliability? Can you talk about 
that, the funding we have in this budget?
    General Harencak. Well, I would start, sir, to say first 
off, this budget will bring us to an area after the NPR has 
given us the policy decisions, that we are going to be able to 
make much better decisions in the future on the transformation.
    While this budget is flat and, as my boss has said here, it 
is a kind of a treading water budget, what we have done 
aggressively in defense programs is ensured that we made 
changes inside that budget that fast posture us to do those 
important things, to increase dismantlements, to make sure that 
what we do have is safe, secure and reliable, but also 
protecting science, which we believe is fundamental to no 
matter what we do.
    In my short time here, I have learned two main things, one, 
that this organization is a capability-based organization. And 
regardless of future stockpile size or whatever, we have to 
have that capability. And that capability comes at a price, 
regardless of how big the stockpile is. So we are being very 
aggressive that we maintain that capability for whatever may 
come out of NPR.
    Also, one thing that I have learned in my short time here 
is that this is really a system. In fact, it is a system of 
systems. And any one decision on any particular sub-bullet 
could have effects across the complex. So it is not going to be 
possible, I think, just to pick and choose some things and say, 
``Well, we are going to do without this. We are not going to do 
this,'' and then hope that it doesn't have an effect 
throughout.
    Even some of our defense program things have very real 
effects on what Mr. Baker does, what Ken does. So even outside 
of defense programs, everything we do actually affects the 
greater system.
    So I am----
    Mr. Frelinghuysen. So you have a fairly high confidence 
level?
    General Harencak. Yes.
    Mr. Frelinghuysen. You have enough resources? Of course, 
there is a public perception that we haven't really reduced our 
nuclear stockpile. It is actually--there has been considerable 
reductions. I don't think there is a lot of public credit given 
for what has been done. And in all likelihood, the Nuclear 
Posture Review notwithstanding, but perhaps inherent in what we 
will see will that there will be substantial reductions.
    There is sort of a perception, though, in some quarters 
that, because the nuclear stockpile has been reduced, that 
somehow there is less money needed for whatever else is needed, 
in terms of making sure of issues of reliability.
    General Harencak. Okay, exactly, sir. It can't be further 
from the truth that, as we reduce stockpile--and we do every 
day. I watched a dismantlement yesterday at Pantex.
    So we continue to reduce the stockpile. Dismantlements have 
been increased. And we are increasing that in this 2010 budget.
    But there--it is counterintuitive, but as we go down, we 
are going to still--there isn't a huge savings that would come 
out from a smaller stockpile, because this system is 
capability-based, not capacity.
    Mr. Frelinghuysen. Could you talk about the reliability 
issue of our nuclear stockpile? You know, it is reliable?
    General Harencak. It is reliable, it is safe, and it is 
secure. But the challenge is to keep it so in the coming years. 
And that is what we are committed to doing. This budget 
guarantees you that it is safe, reliable and secure. We do have 
a lot of challenges in the future, as you know, on 
infrastructure, everything else that----
    Mr. Frelinghuysen. Infrastructure, as well, is obviously a 
workforce that is, you know, motivated to continue the type of 
difficult work and, obviously, the training of the next 
generation of a workforce.
    General Harencak. Absolutely. And that is all part of--I 
have put that into the human capital aspect of our science. 
That is where it resides. It absolutely is the foundation of 
everything else we do.
    Mr. Frelinghuysen. Okay.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Thank you very much. Mr. Edwards.
    Mr. Edwards. Thank you, Mr. Chairman.
    Mr. D'Agostino, General, Mr. Baker, thank you for what you 
do every day.
    The television cameras are probably down the hallway, 
Secretary Geithner's testimony in another subcommittee, but I 
agree with Mr. Frelinghuysen that the work you do in protecting 
our country and our families is second to none. And if you are 
doing your work well--and you do, day in and day out--you are 
not in the news. And that is good news.
    Given the statement, Mr. D'Agostino, that you said on page 
six of your testimony--and, in fact, we know that illicit 
trafficking in nuclear and other radioactive materials 
continues, especially in Eastern Europe, the Caucasus, and 
Central Asia--given that, I salute President Obama for his 
focus on nuclear nonproliferation programs and, over the next 4 
years, getting control of all the loose nuclear material 
throughout the world.
    But given that, I do want to follow up on Mr. 
Frelinghuysen's comments in regard to the budget, because that 
is where the rubber meets the road. I salute you for the 
significant increases in nonproliferation and international 
security programs and in the international nuclear materials 
protection and cooperation program. I was disappointed the 
Senate insisted on a cut in the 2009 budget in that. I think we 
had to take care of that in the supplemental.
    But I would like to ask, first, why are you proposing cuts 
in the Global Threat Reduction Initiative and in the R&D 
accounts, given the significance of the nuclear threat? While 
probabilities of an attack may be low, the consequences are so 
horrific, we ought to reduce the probabilities to as close to 
zero as possible.
    Why the cuts in that? Was it because there was no capacity 
in those two programs? Or was it more before you had set 
priorities within given budget constraints?
    Secondly, I would like to ask on the Megaports program, 
where are we on Megaports? And do we have enough agreements in 
place for, if you had additional funding, you could move more 
quickly ahead?
    And, finally, when President Obama meets with President 
Medvedev on July 6th to talk about nuclear cooperative programs 
with Russia and the United States, if there is an agreement 
that comes out of that that is significant and has budget 
implications, would the administration have an account from 
which it could bring funds? Or would it have to request 
supplemental funds in order to implement an agreement?
    Captain D'Agostino. I would be glad to take that, Mr. 
Edwards. And Mr. Baker may follow me, if you are okay, and with 
any supplemental information.
    First of all, there have been some changes when you compare 
it to the appropriated level for those accounts that you 
mentioned. Most of the changes have to do with work that has 
been completed in the program. Some significant completions, 
for example, in Kazakhstan, the spent fuel project on the casks 
and containers in Kazakhstan and, in effect, this in fiscal 
year 2009, and therefore it presents kind of a precipitous 
drop-off in the budget.
    Particularly, though, if we look at--some of the reductions 
from 2009 are as a result of some congressional increases in 
fiscal year 2009 in some of these programs. So as you look 
across over multiple years, you see there is a slight increase.
    And particularly when you are a slight--basically, 
leveling, if you will, but when you look at the work that was 
completed, that is the biggest reason on the drop-off.
    Another example would be completion of a project at Pacific 
Northwest National Laboratory. Fiscal year 2009 was the last 
year for that. In the elimination of weapons-grade plutonium 
production program, we have completed--essentially we will be 
completing the work on shutting down the reactor.
    That being said, however, you know, there are opportunities 
to do more work. There always is. What we have decided in many 
cases is not to prejudge the president's meeting, necessarily. 
We recognize that President Obama has laid out a fairly 
aggressive goal.
    What we are doing right now--and Mr. Baker's folks are kind 
of right in the middle of this--is developing the detailed 4-
year plan on what it would actually take to achieve that goal.
    We didn't presuppose we knew what it was going to be in 
fiscal year 2010. We said it is going to be more, so we are 
going to do a little bit more. But my expectation is that the 
program that this committee will see, that we are developing 
right now, that we are going to send to the White House in 
September, just a few months away from now, will be 
significantly different than the program before--for the 
public, in effect, right now in front of you. So we made the 
decision not to presuppose that.
    Certainly, with additional resources, we could do more 
Megaports work, as you know. But for now, we felt that the 
amount of people we have working on this effort--we have a 
balanced approach when going from year to year to year on the 
Megaports work.
    In order to convert research reactors and move the last 
research reactor conversion of HEU from 2018 down to the 2012 
timeframe, that is one that requires significantly more work. 
And what it will mean for Mr. Baker is, he is going to need 
more federal employees to do this kind of work.
    He is going to need more contractor employees focused on 
that. We are going to need to be purchasing more equivalent. We 
are going to need to be purchasing more fuel. And then we are 
going to have to deploy ourselves out to these 100-plus 
countries to go make this happen.
    It is a huge challenge. I want to--you know, we are in the 
position now of trying to knock down the details of this 4-year 
plan and be ready to make sure the White House is aware of the 
kind of work that has to happen.
    Mr. Edwards. So to just be clear on this key point, the 
budget numbers coming out of the administration for fiscal year 
2010 were put together before the 4-year plan was proposed and 
the cost implementations of it were fully considered? Is that 
correct?
    Captain D'Agostino. That is correct, sir. We have--the 
president's goal for our program came through not exactly on 
day one of the administration. By then, we were working the 
budget. What we have right now--and I forget. I think it was 
General Harencak, actually, we were teeing up the program, in 
effect, to be ready for the details that Ken is putting 
together on the nonproliferation side.
    There are increases--we do have increases in our program. 
And Ken will describe some of the increases in two of our areas 
that we have before us.
    If I could just speak for a second about the upcoming 
meeting that the president has, and then I will turn it over to 
Ken to talk about some of the details with the 
nonproliferation.
    The president's--our goals, in effect, are to take what we 
talked about--what the president talked about in Prague and 
work out the details with Russia on how we will, in effect, 
achieve these pretty significant goals.
    I think it will be a seminal meeting for the NNSA, for the 
country. I think it is an opportunity to continue on a very 
excellent relationship we have had with Russia in this area out 
into the future. I think what we will see is a strong, you 
know, bilateral relationship to tackle this problem worldwide. 
And, in effect, that is exactly what we need to do for global 
security.
    So I am looking forward to it. And it will also address a 
few other concerns in plutonium disposition that I know the 
committee has had in the past.
    And, Ken, do you want to----
    Mr. Baker. Real quickly--Mr. D'Agostino covered a lot of 
it, Mr. Edwards--a lot of it, Mr. Edwards. The cut in the R&D 
program, we have $85 million more last year than we asked for 
from the president's budget. And when you take that money, plus 
the PNNL work is done, that is why the--it is level or a little 
below in the R&D program.
    The Global Threat Reduction Initiative, as Mr. D'Agostino 
says, we had three metric tons of plutonium at Ocdel in 
Kazakhstan. We are moving it clear across the country. That is 
$100 million program, which will be done this year, so that 
money is gone.
    To answer your question--and the other programs have gone 
up. To answer your question on Megaports, with the budget we 
have this year, we will do 15 more Megaports, which will take 
us up to a total of 43. There are 100 on the list to be done.
    If we add more money--you asked that--how many more 
Megaports would we do with this existing staff? We could do 
five more Megaports.
    Mr. Edwards. [OFF MIKE]
    Mr. Baker. With that, sir, it is about--well, it is $80 
million. If you asked if we could do any more Megaports, we 
can----
    Mr. Edwards. Would you name those ports?
    Mr. Baker. Yes, sir, I can. I have them someplace here. 
They are in--one of them is in Pakistan. One is in South 
Africa. One is in Chile. And the other two--one of them is in 
Israel. And the other one, I don't have at the top of my head 
on that.
    But it is five--to answer your question on, as Mr. 
D'Agostino said, on administrative budget, what this 
administration did, I applaud this president. He has really 
taken a hold in nonproliferation. He realizes the threat that 
we are all facing. And it is very exciting to see such support 
at the top as we are getting from the White House in this job.
    It will take a lot more money to do the 4-year plan. It 
will take a lot more people. And NNSA is giving us more 
people--are giving us more people, Mr. D'Agostino, as a matter 
of fact, a total of 32 more people. So this will be--in future 
budgets, you will see, I think, the budget go up because of 
this 4-year plan that President Obama has.
    One last thing I would like to mention to you, just to tell 
you about some of the work that we have done. I just came back 
from a facility that Dr. Condoleezza Rice said was the worst 
facility she had ever seen in Russia. It has got thousands of 
nuclear warheads in it.
    I just came back. The facility, we fixed it up. It looks 
like Pantex. I was in it. I tried to get the president to go to 
the site when he goes over there for the summit on the 6th and 
7th of July. They don't have----
    Mr. Frelinghuysen. What is the site, for the record?
    Mr. Baker. It is called West 19, which is about two miles--
and that won't tell you much, but it is about 2 hours out in a 
place called Samara out of Moscow.
    What we do when we do these sites, we have three visits. 
And I went on the last visit to make sure all the work is 
completed. And then we pay them the money that has been done.
    It really, really is impressive. They took me out and 
showed me the thousands of warheads that we have there. And it 
is triple-fenced and everything else. It would make you proud 
of the work that the NNSA does and the Russians do together to 
make these facilities more secure.
    Mr. Edwards. Thank you.
    Mr. Visclosky. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    The attendance by the committee members speaks to the 
importance of this issue. Your presence here, all three of you, 
reminds me that the president has made a good decision here and 
that has kept an important team in place as we go forward.
    I was at the White House last night with a bipartisan group 
and, frankly, really thoroughly enjoyed talking to the 
president and the first lady and said to some of the senior 
staff there that the attention has been on the domestic agenda, 
mostly the economy, during the first 100 days, but the fact is, 
the economy goes up, it comes down, it runs in cycle. The 
government can cause more problems than they solve from time to 
time when they intervene.
    But on this issue and global security, foreign policy, the 
government is essential. It is absolutely critical. And these 
are the biggest issues. And this is where the president has the 
greatest opportunity to do the most good.
    Nonproliferation activities, obviously, are a focus. This 
committee has focused highly on MOX, the problems and the 
challenges at CMRR, but kind of quietly in this budget request 
the design funding for the UPF, the Uranium Processing 
Facility, has been diminished. The targets for beginning 
construction have been slid back to 2013.
    While I have limited time, I would like the administrator--
who I, too, respect greatly--to talk about the needed 
investments for us to maintain the deterrent, maintain the 
capability, support a variety of other important government 
functions while working on nonproliferation activities.
    For example, the UPF has a nonproliferation role. It has a 
nuclear Navy role. It has a forensics mission. Can you tell me 
why these things are important? And I am asking you, not, 
frankly, the administration or OMB. I am asking you why these 
things are important, because the committee sometimes has to 
increase funding in areas that are vital to maintaining the 
deterrent and the capability, while also pursuing 
nonproliferation goals.
    Captain D'Agostino. Thank you, Mr. Wamp. I will be glad to 
answer that.
    The capabilities--just to talk about UPF, the capabilities 
that the Uranium Processing Facility will provide essentially 
are to maintain the capabilities we currently have at Y-12, but 
do it in a very different way, do it--I wasn't sure if this was 
on--do it in a way, in fact, that focuses on a couple of key 
things, a much more cost-efficient way.
    Right now, our focus is for folks that have been down to 
Bear Creek Valley, they know that we are dealing with the 
legacy of the Cold War. We are spread out over a tremendous 
distance. And we are spending a significant amount of money 
providing security for a very large area because of the amount 
of highly enriched uranium that we have.
    In effect, we think there is a better way. And the 
committee's support on the Highly Enriched Uranium Materials 
Facility is the first significant and large steps toward 
consolidating the amount of uranium we have in the country into 
fewer locations and fewer sites.
    The Uranium Processing Facility allows us to, in effect, 
get out of Cold War-era buildings, again, spread out over the 
complex. And so what we have is material storage and all of the 
hands-on production work that is required.
    And this isn't just production work to build nuclear 
weapons. In fact, we need these facilities to disassemble 
nuclear weapons. That is where our disassembly is going to 
happen and will be happening out over the next 15-plus years, 
because we have a lot of warheads to take apart.
    But in essence, I am interested in driving costs down 
significantly. We think a move to consolidate our nuclear 
security footprint in Y-12 is going to save us about over $200 
million a year not only in security costs, which are 
significant, but in operational costs, not having to move 
material around that whole valley area. We are going to be able 
to do it with a much smaller workforce.
    So in addition to the very important nuclear security roles 
that we have at Y-12, which is maintaining the deterrent, doing 
the surveillance work that we have, disassembling nuclear 
weapons, doing nonproliferation, you know, the research reactor 
conversion that Ken Baker's program does, a lot of that 
material goes through Tennessee, getting ready to provide the 
low-enriched uranium fuel. All that work gets done in that 
area.
    And so I am interested in making sure that our workforce is 
in what I would call environmentally safe, efficient, 
personnel-safe types of facilities and not have to spend money, 
which I currently--frankly, right now, we have started a new 
project, it is a small project called risk--it is a risk 
reduction project at Y-12 to maintain our current old 
buildings.
    But that is important to do. We have to do that. But it is 
money that, in effect, would be--this is my personal view--we 
had better spend in actually getting us set up for the future.
    Mr. Wamp. May I interrupt----
    Captain D'Agostino. Well, you have my assurance that I am 
not interested in the policy of neglect. And I do recognize 
that what we have here, as Mr. Frelinghuysen pointed out, is--
it is a term that I used, which is kind of keeping things from 
getting worse, fixing what we have, not losing the scientific 
capability, keeping our design teams together, moving forward 
on the design of a couple of key facilities that we have to 
make, without committing to construction until I get the 
nuclear security policy lined up with the size of the 
stockpile, and I would add to that other nuclear security work 
that we have to do, and lining that up with the infrastructure 
needed to support it.
    Now, it is my considered view, as the General said, that we 
are, in effect--we are at a capabilities-based level, but what 
we have to do--what I have to do is balance, in effect, risk 
across not only the infrastructure, but the national nuclear 
security programs that we have.
    In my view, if we do more nuclear security work, we are 
going to need to bring these programs and projects back into 
the fold from a construction standpoint. I see you--I believe 
you will see that--I apologize for saying, ``Wait until the 
next budget,'' but, because of timing right now, my focus was 
to make sure we don't lose the design teams and continue to 
make progress on this.
    Mr. Wamp. But naval----
    Captain D'Agostino. Well, naval reactors will need to--I 
mean, the existing facilities are providing the capability that 
we have right now at increased risk. And so--and cost, 
increased risk and cost.
    The question will be--and this is a technical judgment--the 
defense board has spoken, as you correctly pointed out, but I 
also--ultimately, in the end, it is my responsibility or 
whoever sits in this seat and the general's seat responsibility 
to take a look at what is happening out on the strategy and 
policy side, meld that in with the requirements, and worry 
about safety and security and cost at the same time.
    The balance came out in this program--and I have called 
this--I don't want to--a one-year budget, in effect. What we 
have is a 2010 budget before you. We don't have a 2010 to 2014 
budget. We have a one-year budget to keep us going.
    The focus in this program was to not lose key people. It is 
a lot harder to--and it is not clear that we will be completely 
successful in that, but it is a lot harder to bring people into 
a program, develop them over time, than it is to build an 
infrastructure capability. And so our focus was to do that.
    Mr. Wamp. Well let me take a moment here, because there are 
so many people going to speak, that as the person who has 
represented Y-12 for 15 years, you won't keep the key people 
with this budget request for UPF. You won't.
    And so I hope that Mr. Baker is not right that, if the 
committee raises funding in any level, that then next year you 
say, ``We got more than we asked for, so, you know, the 
baseline didn't increase,'' but these are important issues. 
There is not a more important issue, in my opinion, on 
maintaining our deterrent, as the president rightly pursues 
peace among the world, but you can't go with that from a 
position of weakness or a lack of capability.
    So enough said. I yield back. Thanks, Mr. Chairman.
    Mr. Visclosky. I am going to recognize Mr. Salazar in a 
second, but I guess this would be the appropriate time to, Mr. 
D'Agostino, ask you about the Nuclear Posture Review and the 
QDR.
    There has been a number of comments and give-and-take here 
this morning about the budget, somewhat indicating that it is 
passive, it is one year, we are not looking ahead, there may 
not be enough money.
    For the last couple of years, it is no state secret that 
this committee has been very aggressive in pushing the 
administration, past and present, for having a policy on 
nuclear weaponry that makes sense in this hearing, and not just 
as far as the possession of nuclear weapons ourselves, but how 
conventional weapons play into our defense, how non-kinetic 
means play into our defense, and then have that defined where 
we need to go, as far as the types and numbers of weapons and 
the--lead.
    Yesterday--and Mr. Frelinghuysen was there--we had 
Secretary of Defense Gates up here before the Defense 
Subcommittee. And I asked a question about the NPR and QDR and 
was heartened, I must tell you, that he attached urgency in 
moving ahead with some of the decision-making process and, if I 
remember correctly, indicated, at least for planning purposes, 
for the 2011 budget, he wanted to have some decisions in place 
so they could start having those embedded in that 2011 budget, 
as opposed to it comes in January, the budget is out, and now 
we will wait until 2011.
    I formulate that. That is kind of where I am. And my 
question is, I am assuming the Nuclear Posture Review, the QDR 
is not simply going to be a litany and list, ``Here is where we 
are. Here is where we are going to be,'' but that there will be 
more texture to it and that the compelling questions we have 
been asking here for the last couple of years will to some 
larger extent be addressed and we will start seeing that in 
those out-year budgets?
    And if you--just for a few minutes. And I hate to take it, 
but I think it is probably appropriate to ask and question the 
panel.
    Captain D'Agostino. Certainly, sir, I would be glad to.
    Mr. Visclosky. Well you know----
    Captain D'Agostino. Yes, absolutely. As someone who has 
testified before this committee for a number of years now, I am 
very aware of the committee's views with--and, frankly, logic 
behind establishing--consensus on a strategy, how that strategy 
defines and protects programs that need to support that 
strategy and how the infrastructure supports the programs that 
support the strategy and getting that linkage together, 
recognizing that we can't do things in series, but there is 
going to be--there would have to be some overlap, because 
otherwise, you know, we will be talking about this until the 
year 2030, and our desire is to be expeditious about moving 
forward, because we do all do believe these are very important 
for our nation.
    The questions that were asked and put forth in the 
committee's conference report language a number of--2 years 
ago, I believe--are forefront in my mind that need to be 
answered.
    This Nuclear Posture Review needs to be different, I 
believe, than last--previous Nuclear Posture Reviews. It can't 
be a coffee table cookbook, coffee table book, you know, where 
you just sit it out there, it looks pretty. It has got to have 
some detail to it.
    I am particularly interested in driving that level of 
detail in my role of informing the Nuclear Posture Review, 
because I know that, if I am here next year, I will need to--I 
will be defending that document and defending that policy and 
explaining how it shapes that program.
    So I am particularly energized in providing as much detail 
as I can. I will say the following anecdote, if I could. And 
that is, I spent a number of time--a bit--quite a bit of time 
with my staff in formulating, what questions do I think the 
Nuclear Posture Review needs to answer in addition to what the 
committee has put forward? And we came up with a list of about 
28 different questions, as well.
    And so we want--we are going to--I am working hard to put 
detail into this. I believe what we are going--there is a bit 
of a time crunch, of course, as you pointed out, on wanting to 
make and shape our fiscal year 2011 budget. I think what we 
will get is enough information done towards the end of the 
summer period, early fall, so I can get that budget shaped and 
get it nailed down.
    And then, when the details come out, publicly, if you 
will--the public document later on this year--I think it is 
December 2010 is our current goal--is to have all of those 
pieces clearly identified, all those questions that you ask 
clearly identified.
    That is my charge, is to get that kind of detail into that 
document and explicitly addressed, not implicitly addressed.
    Mr. Visclosky. Well, and I appreciate it, because a good 
report has value, but I do think we are at a tipping point 
here, as far as looking ahead. And your timetable clearly jibes 
exactly with what the secretary said, because, again, money is 
at some point limited as far as our universe.
    And if something is going to go by the board or there is 
something new that we do have to undertake, sooner rather than 
later, that will certainly help the decision-making process.
    So I appreciate your response very much.
    Captain D'Agostino. Yes, sir.
    Mr. Visclosky. Mr. Salazar.
    Mr. Salazar. Well, thank you, Mr. Chairman.
    Thank you very much for being here, all of you.
    I would like to talk a little bit about something that is 
pretty close to home in Los Alamos National Laboratory. In July 
of 2008, the GAO recommended that Los Alamos National 
Laboratory develop a comprehensive strategy, a plan for 
laboratory security.
    And they addressed, actually, five issues. One of them, 
they asked that you address all previously identified security 
breaches for weaknesses; number two, that it contained specific 
and objective measures for developing and implementing 
solutions to addressing previously identified security 
weaknesses; number three, that it takes an integrated view of 
physical and cybersecurity; and, number four, that it focuses 
on improved security program effectiveness; and, number five, 
that it provides for periodic reviews and assessment of 
strategic plan to ensure LANL identifies any additional 
security risk and addresses them.
    Have all these things been done? There are five questions 
in there, I guess.
    Captain D'Agostino. Right, sir. They are not all completed, 
no, sir. What the laboratory's approach right now--our 
approach, in effect, is to take a look at this integrated--
start off with the integrated physical and cyber review--is to 
bring those pieces together.
    I will give you an--maybe the best thing to do is 
illustrate an example of how we are moving forward. The 
laboratory is spread out over 43 square miles. It, in effect--I 
mean, this is a pretty big piece of territory, if you will--and 
it is comprised of capabilities that are pocketed over that 
period of space.
    In the past, what had been done is to each of the 
individual organizations or departments, if you will, that ran 
their activities, whether it was high explosive activities or 
filling the detonators or doing the X-ray work that had to be 
done, maintain their own physical--maintain their own set of 
documents, classified documents, disks, documents, and 
capabilities that all required protection.
    That was then; this is now. What we are trying to do and 
what we have done is implemented what we call a red network 
that allows a lot fewer documents to be had across the 
laboratory. And the laboratory has reduced its classified 
holdings significantly by many tens of thousands of documents. 
The same thing on what we called accountable----
    Mr. Salazar. Are you talking paper documents?
    Captain D'Agostino. I am talking paper--yes, sir, paper 
documents, as well as--more than paper documents, though--as 
well as what we call accountable, classified, removable 
electronic media, in other words, disks, hard disks that are 
removed that are put in safes, floppy disks that have 
classified information on them. We are getting away from that. 
We want to go to--and we have made significant progress on 
going to a completely disk-less environment.
    And so these documents were kept in rooms we call vault-
type rooms, which are in essence rooms that are safes, if you 
will. And they have had document custodians. The laboratory had 
over 140 of these rooms, which is crazy to think about that, 
that many vault-type rooms. Think about how many opportunities 
we have to have security problems, not just having the guards 
around the rooms, but, in effect, losing material.
    And so they have made appreciable progress in the last 
year-and-a-half. We have taken away 43 of those rooms. And we 
are going to consolidate to pockets of what we call super 
vault-type rooms with professional document custodians, not 
scientists, but document custodians that are in charge of doing 
that and then, while we transition, to have all of this 
material online in a separate classified area.
    So it accomplishes both the physical and the cyber elements 
of the GAO's recommendations. You know, there is a lot more 
that has to happen on the security side of Los Alamos.
    Brad Peterson, who I recently brought on board within the 
past year, used to run the inspections and oversight area for 
security, both physical and cyber, in the department. I brought 
him to run the security organization for the NNSA, because I 
recognize he had the best experience. He has seen it all--
literally, has seen it all with respect to physical and 
cybersecurity.
    He is aware of the GAO recommendations. And he is working 
his way through some improvements.
    I don't have all of the details on what we have done on 
these other four elements you described. If I could take that 
for the record, I would be happy to provide that.

[GRAPHIC] [TIFF OMITTED] T4227A.054

[GRAPHIC] [TIFF OMITTED] T4227A.055

[GRAPHIC] [TIFF OMITTED] T4227A.056

    Mr. Salazar. Okay.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    And thank you all for being here today.
    A couple of questions about the budget. First, the increase 
in the defense nuclear nonproliferation budget is primarily a 
paper increase, isn't it, because of the movement of the MOX 
facility into that line budget? So other than that, it is 
pretty much flat budget.
    When we look at that, what are the pension liabilities that 
are being faced by your contractors? And are any of those taken 
into account in this budget?
    Because I ask that, because in some of the other budgets 
that I have looked at in the Department of Energy, there are 
increased in a particular line, which makes it look like it is 
going up, and it is, but much of the increase is for the 
pension liability issue that we have to address. And so the 
overall budget to actually do the work is down.
    Is that the case in yours? And how does the pension 
liability issue stand in your department?
    Captain D'Agostino. Okay, I will take that, if I could, 
because it is a little bit broader than just nonproliferation.
    We do feel we are going to likely run into a pension 
problem. We don't know.
    What we start off--every January, we do an assessment. In 
fact, we did an assessment this past January and found out that 
we were short in fiscal year 2009 in pensions. And so we did--
we moved--we addressed that problem in 2009.
    And as a result of that, as we were developing the 2010 
budget, we made an appeal for and received support from the 
White House to provide an additional $122 million in this $9.9 
billion that you have in front of you, sir, to address that.
    It is addressed in two areas. One area it is addressed in 
is in naval reactors, which I won't get the number exactly 
right. It is on the order of $50 million to $60 million or so 
of a naval reactors piece. It goes directly into various 
accounts within the naval reactors program.
    The other area that there is an increase is in weapons 
activities account, largely managed by General Harencak, and 
that is in--pardon me for being too specific, but there is an 
RTBF account--within the weapons activities account, there is 
an RTBF line. And within that line, there is an institutional 
site support line. And there is about $60 million or so--that 
kind of gives you the $122 million total for the NNSA.
    We think, for 2010, that this will cover a significant 
share of the expected liability in 2010, maybe not all of it. 
But, again, we are guessing what the stock market is going to 
be next January.
    Mr. Simpson. Right.
    Captain D'Agostino. And even my performance hasn't been too 
good in that area, but we have gone a pretty significant step 
towards addressing the expected liability in 2010. We still are 
out and will--potentially up to $160 million more, but that is 
assuming we know what happens next January, and we don't.
    So we have made a--kind of a big step in the right 
direction to address the pension liabilities. It probably 
doesn't cover it all, but we don't know. When we know, when we 
find out next January, because we are going to do the financial 
actuarial drill next January, we will re-evaluate. We will make 
sure we talk to the committee staff and let them know what we 
think the liabilities and concerns are.
    Mr. Simpson. So overall in the budget about $122 billion is 
meant----
    Captain D'Agostino. [continuing]. $122 million, sir.
    Mr. Simpson. [continuing]. Excuse me, million--is meant to 
address the pension liability. I know it hasn't gotten that bad 
yet if it is in the billions, but--and I do appreciate that.
    Mr. Visclosky. Will the gentleman yield for a second on 
that?
    Mr. Simpson. Sure.
    Mr. Visclosky. If I could just add on to Mr. Simpson's 
observation, could you talk for a minute about the Work for 
Others and any additional liability that that may be creating 
for the agency?
    Captain D'Agostino. Okay. Do you want me to do that now or 
in conjunction?
    Mr. Simpson. Sure. Yes, go ahead.
    Mr. Visclosky. Or if you want to answer--but if you have 
something off the top of your head, that would be terrific.
    Captain D'Agostino. Okay. Work for Others has gone up in 
the National Nuclear Security Administration. It is an 
example--it is a significant share of Sandia's portfolio, in 
effect.
    These are activities that are anywhere from 6 months to 3 
years, solve another agency's particular problem, usually the 
intelligence community, Department of Defense, Department of 
Homeland Security, FBI, and others, for that matter, other 
intelligence groups in the Defense Department.
    So that has gone up because they have been able to 
capitalize on the investment that we in the--we, the committee, 
the country has made over 50 years' worth of investments in 
protecting our deterrent and dealing with nuclear security 
issues.
    I am very keen on liability--on concerns about liabilities 
because I have seen instances in the past where we have been 
having to deal with a legacy Work for Others problem. I won't 
name the agency, because it is not fair, but we have had one at 
Sandia, for example, where we had some sodium debris bed 
material that had been laden with some highly enriched uranium.
    And my desire was to, in effect, take all the category one 
and two nuclear material out of Sandia to reduce our security 
costs, and that was the last chunk of material. And I said, 
``Well, where did this come from? Whose program was it? Why are 
we doing this?'' And it turned out it was a legacy from a Work 
for Others project.
    So, you know, one of the elements of the review process is 
to make sure that we understand and either accept or reject the 
long-term liability.
    Mr. Visclosky. [OFF MIKE]
    Captain D'Agostino. So I won't. That is right, sir, but I 
think, as with any process, whether it is run by a private 
company or a government organization, it is subjected to 
technical judgments. Somebody makes the decision, ``I am going 
to agree to take this project on or not.''
    I think what we have--this is the thing that we are working 
on right now with the lab directors and plant managers is, how 
do we think about Work for Others in a different way than we 
have in the past? In the past, it was kind of a marginal--
something that is done off to the side. And if this work is 
going to continue to increase, then I need to get some 
partnership from these other federal agencies to agree to work 
with us on this long-term liability problem.
    And that is--but the secretary has actually challenged me 
to get something to him by the end of this month on that front.
    Mr. Visclosky. I thank the gentleman for yielding.
    Mr. Simpson. Thank you.
    One other--a couple other issues. One of them is--back to 
the MOX facility. I don't want to beat a dead horse, but I 
guess it is not a dead horse. It is a living horse. Is----
    Mr. Visclosky. A growing horse.
    Mr. Simpson. A growing horse. The negotiations with Duke 
Energy over fuel have gone by the wayside. Do we have anybody 
that is lined up to purchase any of the fuels that are made by 
MOX? If not, what is the likelihood that we might get some?
    And in that same view, as long as we are talking about 
that, the Pit Disassembly and Conversion Facility, we are going 
to start constructing that. That is supposed to be a feed stock 
into the MOX facility. Is it going to be in line on time? If 
not, what is going to be the feed stock for the MOX facility if 
we don't get the PDCF constructed in time? And where does all 
that stand down there, if you would?
    Mr. Baker. First of all, Mr. Simpson, on the contractor, we 
have three candidates--and one of them is Duke--that could take 
over this contract. So we are working that right now.
    Mr. Simpson. Along that same line, do we subsidize the cost 
of the MOX fuel in order to use it, as opposed to buying----
    Mr. Baker. Yes, sir, we did with Duke, but that contract is 
over, so whether it be renegotiated next time, and we will see 
how that comes out.
    To answer your question on the timeline?
    Mr. Simpson. The timeline with PDCF and MOX.
    Mr. Baker. We have enough plutonium to take us to 2021. The 
pit disassembly plant has got to be on in 2021. We have 9.8 
metric tons, some of it at Los Alamos, the rest of it at 
Savannah River. So we have enough feed stock when the 
plutonium--when the MOX facility comes on, to keep it running 
until 2021.
    In 2021, the pit disassembly plant has got to be up and 
running or we don't have any more feed stock to burn.
    Mr. Simpson. Okay, thank you.
    One brief question I will ask, and then we will have more 
time later, right? As you know, we have had some negotiations 
with and back-and-forth between NNSA and the INL on Building 
651, special nuclear materials consolidation. Where are we on 
that? And any idea when--as I understand, we are kind of all on 
the same page now?
    Captain D'Agostino. Yes, we are largely on the same page. 
Joe Kroll, who runs the nuclear weapons counterterrorism group, 
who is working with John Grossenbacher, Admiral John 
Grossenbacher, who is running the laboratory, and the site 
office manager to set up, you know, how we would use the 
facility and, you know, what material--I mean, our goal was--
one of my goals was, the less--if we are going to move nuclear 
material, we want to know that it is going to be there for a 
mission----
    Mr. Simpson. Right.
    Captain D'Agostino [continuing]. And that it is--we are not 
moving excess material. Every time material is out and about in 
transit, you know, there is a vulnerability piece that makes--
even though I don't have much hair, it starts to stand up on 
end.
    Mr. Simpson. But consolidation of some of this material 
makes security and stuff a lot easier, doesn't it?
    Captain D'Agostino. Yes, but what I don't want to do is 
create, you know, new larger groups of material. So if we have 
an area that already has that security footprint for another 
program--for N.E., for example, what have you--we ought to take 
advantage of it. I mean, it is----
    Mr. Simpson. Right.
    Captain D'Agostino. But if not, I don't want to create a 
new site, security site, because all of the advantages I get--
me out of shrinking the Y-12 problem or denuking Lawrence 
Livermore or Sandia, start--go out the window. So----
    Mr. Simpson. But given that we are all on approximately the 
same page now, because the committee has kind of insisted that 
we do that and has actually put in funding for it, I think, in 
the 2008 or 2007 and 2009 budget, something like that----
    Captain D'Agostino. Yes.
    Mr. Simpson [continuing]. NNSA hasn't--it hasn't released 
its sites to upgrade the facility and so forth, in fact, has 
wanted to reprogram that, and the committee has kind of refused 
to allow it to happen. So now that we are all on the same page, 
any idea when those funds will be released to the site for the 
upgrades in the facility?
    Captain D'Agostino. I would be guessing if I tried to 
answer that. I would like to take that for the record----
    Mr. Simpson. Sure.
    Captain D'Agostino [continuing]. And get back to you on the 
specific date and maybe some of the--more of the specifics 
about what it would be used for. That way you would have that 
in writing.
[GRAPHIC] [TIFF OMITTED] T4227A.057

    Mr. Simpson. Appreciate it. Thank you.
    Captain D'Agostino. Yes, sir.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Davis.
    Mr. Davis. Mr. Chairman, thank you.
    In my real life, I am a farmer and a contractor. And as I 
finished a project, I was always happy when I saw a short wish 
list or what we call a punch list to finish a particular 
project that I was working on. And I would take that punch 
list, and I would prepare the workers and what we had to do to 
finish the work that was necessary for that building to be 
occupied and to the--to make someone happy or satisfied or 
provide a place for someone to live or whatever--if there is a 
bridge, to be sure the bridge was safe for folks to travel 
across.
    Obviously, that helped me somewhat when I became a 
congressman. It seems we are always working with a punch list 
on unfinished business, unfinished things that need to be done. 
I am glad that is the case--ever finish everything.
    But I have traveled some. And I have observed a lot of 
unfinished things in the world. One of the areas that I visited 
most recently--and you, perhaps, have been there, as well--has 
been facilities at Y-12.
    Having a father who went through an ordeal of having bone 
cancer from prostate cancer, I know that in Oak Ridge the 
medical isotope production there helped them be able to get 
nuclear medicine that at least made the quality of life for him 
his last few days at least more comfortable.
    As I look at all of the areas that we are engaged in at the 
UPF, the uranium enrichment therein at Y-12, I see an old, old 
building that was built about the time the Manhattan Project 
started, somewhere around the 1940s.
    And I know back then we have made some mistakes. And many 
of the folks who live in that area are enduring some of those 
mistakes today through health conditions and others. But we now 
have a lot of research and a lot of data that says this is what 
we need.
    And so I would look at a baseline that we have established 
for the planned operational date for a new facility at Y-12, I 
believe by 2018. I look at this year's budget and I see even 
the planning for that building that has been cut back to $54 
million when it should have been roughly $117 million--
obviously, as requested by those at Y-12, that we could at 
least have--work.
    You would look at this and you would say, ``Well, that is 
just about his own area.'' Yes, it is all parochial, and we all 
have local issues. But my belief is this is more than just a 
local issue.
    Congressman Wamp has obviously asked serious questions to 
you that I would have been interested in asking. I have some 
others I would like to ask.
    You have been there. What is the condition of 9212 facility 
there at Y-12? And, secondly, is this facility viable for long-
term enrichment uranium or mission capability?
    Captain D'Agostino. Okay, if I could--I would like to 
answer that, and I would also like General Harencak to answer. 
He was just at Y-12 just----
    General Harencak. Monday.
    Captain D'Agostino [continuing]. Monday, if I could, sir.
    Mr. Davis. Amazing place, isn't it?
    General Harencak. Yes, sir, it is.
    Captain D'Agostino. I think you are right. It is more than 
just local issues. This is a national security issue. It is, 
you know--I have been there a number of times. The condition is 
not good. It is safe, but only safe because we are spending 
money, quite frankly, every year.
    Mr. Davis. How much extra, would you say?
    Captain D'Agostino. We have a nuclear risk reduction 
project, I believe it is in the tens of millions of dollars. I 
can----
    Mr. Davis. About $200-some-odd million, I believe, through 
safety and security.
    Captain D'Agostino. We would save, by building--once the 
facility is completed, we believe we would be able to save 
about $200 million a year, based on our current Y-12 budget. 
But there is a long way to go before we actually get there.
    I do believe that the buildings are safe now, but over the 
long--this is not a long-term solution. Fixing Cold War-era 
facilities--and I would say early Cold War-era facilities--
maintaining them, in fact, limping them along is not a good 
long-term solution.
    We know it is not a good long-term solution. What we have 
in the 2010 budget right now is an effort to continue the 
planning work necessary to ultimately get to the right design, 
not to focus on not having any major impacts.
    Certainly it is not per the original plan that we had teed 
up to you last year, but it is an effort to, in effect, 
continue to move forward slowly, but not presume the outcome of 
the Nuclear Posture Review, because the committee has made it 
clear to me that there is a certain sequence that it would like 
to see.
    However, that being said, I am very confident that, once 
the Nuclear Posture Review is completed and it defines the 
total scope of nuclear security work that has to be done--not 
just weapons work, frankly; it is also the dismantlement work, 
the nonproliferation work, the reactor conversion work, the 
naval nuclear propulsion work that needs to be done--that we 
will see the right kind of bedrock, if you will, to move 
forward on expeditiously on the facilities.
    Now, I will have to balance that, of course, with the whole 
overall program. And that is something I am keenly aware that I 
will need to--we are going to need--Gary Harencak and I are 
going to need to do that probably within the next 3 months, 
frankly, as we build our fiscal year 2011 program and budget 
for the president and ultimately submit it to you, sir, next 
January.
    But it is not a viable, long-term solution. But I would 
like the general, if you will, to maybe provide some more 
recent observations and, plus, a fresh look. Having been all 
over the Air Force and around the world, he can give you his 
impression, sir.
    General Harencak. Yes, sir. First, let me say, I fully 
agree with you. It is safe now. It is. However, it is--no way 
can you see that building where you are wearing a hardhat, 
because you actually need it, that that is a long-term 
solution.
    There are some great Americans working, doing a wonderful 
job there, but we have to give them a better facility to do the 
very important work that they do. That is my best military 
advice. Having seen that, it is--they are doing a fantastic 
job. But when you see the old machinery, you see what they are 
doing, that you realize how important UPF will be for our 
future.
    Now, that being said, we, of course, have to balance our 
budget proposals. I will tell you that we have already made 
significant savings in the design in that new UPF, in--
especially in the structure. We have learned very valuable 
lessons from the structure that is there now that we are going 
to take. So we believe that the design has actually gotten 
better just in a couple of years that we did it.
    As I talked earlier about--I am convinced UPF is a key part 
of that. We cannot continue long term to operate in the present 
facilities with such a key area of uranium processing without 
it.
    So we want to maintain flexibility as we go, looking on. 
And that is what the design team--Ted Cherry and his great 
people there are very mindful that they are going to design a 
facility that will be flexible enough to give us the capability 
regardless of what comes down. And that is really what we want 
to be careful that we are doing.
    I am 100 percent sure that we won't get it 100 percent 
right. We are going to have to make some decisions on sizing 
and capacity of that facility based on what we believe we will 
need to do. So what we are trying to do is design flexibility 
in it, sir.
    Mr. Davis. I was chosen as a contractor on many occasions 
because I had the staff, the workers, the professionals, the 
technical skills to be able to complete and perform on time and 
under budget for the individuals who chose my construction 
company.
    Are you concerned that we may lose some of the technical 
skill that we--those folks who are actually--as we see this, if 
we actually are not able to have $117 billion necessary to 
continue this planning, this baseline planning that we have to 
complete this project--by 2018? Are you concerned that we may 
lose some of those highly skilled and technical individuals? I 
am.
    General Harencak. Yes, sir. And as I got my briefing on 
Monday on this, that was my very first question. Can we keep 
those highly skilled people that will make that decision, that 
will get us 98 percent correct on the future size and capacity 
of this building?
    And I am convinced that we have done everything we can in 
this budget to maintain that. These people are committed to it. 
I do agree with you, Mr. Davis, though. We have to be very, 
very careful and we have to keep our eye on that ball 
constantly that we don't drop this and that capability doesn't 
lose us, because it will cost us a gazillion dollars to bring 
it back.
    Mr. Davis. My concern is, we may be fumbling now. And it is 
my hope that as we go through the appropriations process that 
we can--would you advise us to take another look at this amount 
that you have requested, that maybe we should raise that limit 
just a little bit up to where it would match the baseline, it 
would at least continue the design and planning for the new 
structure?
    Because as I look at it, we are talking about roughly a $2 
billion cost, if we can start reasonably soon. That would be 
right--savings that we completely pay for this, plus have a 
safer work environment and a more secure facility.
    And I am just wondering if we should--if you would--if you 
have had any--as they say back home, any recapitalizations 
about your request? And should we try to engage and maybe 
increase those dollars?
    General Harencak. Well, I will tell you what, sir. I think 
my boss wants to answer that. [Laughter.]
    So we will let him answer that.
    Mr. Davis. I am listening.
    Captain D'Agostino. Well, sir, I probably won't be as 
direct as you might like. But what I do want to say is, you 
know, what we have is a budget that doesn't comport to the plan 
that we presented to you last year. We have a program that 
works to not grow the design teams more, but keep the design 
moving forward.
    What I am looking to do was take the output of not only 
this bipartisan--the strategic commission that came out, but 
more importantly, when I get a better idea of how much uranium 
work I am going to ultimately end up getting on the--you know, 
from Mr. Baker here coming in as a result of the president's 
commission--president's goals of securing material in 4 years, 
that is going to mean a lot more work, frankly, to the program, 
I think that is going to drive where we need to.
    And as you know, there is a certain amount of a tradeoff 
here. We have a couple of large facilities that are teed up in 
front of this organization and ultimately we will present to 
the committee. The plutonium capability at Los Alamos is in--
has a different set of problems, and they are different. And in 
the end, it is going to require----
    Mr. Davis. But isn't that basically a lab where they are 
doing research, were you talking about?
    Captain D'Agostino. There is research. There is analytical 
chemistry and material characterization research that has to be 
done on the plutonium side.
    Just like the Y-12 capability deals, that is the place 
where we feel the nation is going to be able to do the 
forensics work that it is going to need out into the future and 
maintain our plutonium expertise, just like Y-12 on the uranium 
side.
    So there is a really tough choice ahead for the 
administration when we come forward. What I didn't want--
because I have also reduced the plutonium program, frankly, as 
well, and have brought those back to a level after talking with 
Mr. Harencak, and the plant managers, and the lab directors on, 
how can I slow things down enough to the point where I don't 
get the horse too far out ahead of the requirement?
    In the end, the nation is going to need both of those 
capabilities. It is going to need a plutonium capability, and 
it is going to need a uranium capability. It is going to need 
to be in a safe area.
    You know, I think the president's budget presents the 
balance of what we had to operate within to do that. Obviously, 
more resources allow us to refine the design sooner.
    And one thing I have always noticed on large projects, the 
more work you do up front in defining--you know this, sir, 
probably better than I do--the more work you do up front and 
knowing what your requirements are, the better chance you have 
of hitting your mark on cost, scope and schedule.
    And that is why we have so much money spent in on both of 
these projects up front to do that.
    Mr. Davis. Were you given an opportunity during the writing 
of the American economic recovery and reinvestment act--some 
folks would call that a stimulus bill, but it is--were you 
given an opportunity to make requests for this type of 
facility? Because in some cases, those dollars have been used 
to actually substitute some of the basic budget needs for this 
year. Were you given that opportunity and basically did not 
request, or----
    Captain D'Agostino. We provided to the administration, as 
the president looked at the portfolio of the activities, these 
activities were--a set of these were put forward. I don't know 
if this one specifically was, frankly. I do know that we had 
some from the NNSA.
    Mr. Davis. Thanks. I thought I had to filibuster until Mr. 
Chairman got back.
    I yield back my time.
    Mr. Visclosky. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    As been noted, the number of warheads in the stockpile 
continues to go down, which is a good thing. But, obviously, it 
becomes more important to have life extension on the existing 
stockpile.
    And with the reliable replacement warhead being set aside, 
the issue of reliability, I think, becomes extremely important 
to make sure that the president knows that they have a reliable 
stockpile, God forbid it was necessary.
    Why don't you explain for the committee how important NIF 
is going to be in certifying that the stockpile is reliable? 
And is there sufficient resources available at the present time 
to make sure that NIF is operating at its optimal level?
    Captain D'Agostino. NIF will actually be--NIF will actually 
be critical towards addressing a couple of key points. There is 
clearly our desire--we talked a little bit earlier about 
maintaining the best scientists in this country to deal with 
these issues, not just the stockpile, but nonproliferation, 
intelligence analysis, forensics, and the like. And NIF will be 
an incredible part of being able to maintain that capability.
    But more importantly, the reason why we wanted--we felt we 
need and we received your support for the design, development, 
construction, and ultimately use of this facility was because 
there were some very specific, classified problems that we felt 
that this was the only facility that will be able to allow us 
to examine those regions that none of the other facilities 
could do.
    And if we are talking about regions of burning, which is, 
you know, a physics term, if you will, of burning hydrogen--
fusing hydrogen and creating that element of what happens 
inside a nuclear warhead in a laboratory. The data that is 
going to come out of that is going to allow us to explore 
issues that we might have with aging.
    If there is a crack, for example, because a high 
explosive--a high explosive is, obviously, not a metal--and it 
ages, just like everything else does--if a crack develops and 
causes a problem, does that cause an issue with respect to the 
shapes, very important shapes that we need to examine?
    We can only examine that in a laboratory with something 
like a National Ignition Facility. And we would use that 
information to put into our computer codes and to model what 
might happen out over time. I would be happy to provide you, 
sir, with a classified briefing----
    Mr. Calvert. But staying at that--do you believe you have 
the resources available in this budget to make sure that the 
facility is operating at the level it should be?
    Captain D'Agostino. Yes, this budget will operate that 
facility--the NIF is already--I always call it oversubscribed, 
if you will. We have enough experiments to keep us busy for the 
next 6 years, although we have, in 2010--the most important 
thing about this budget in 2010 is it provides the resources we 
feel that we need in order to conduct the ignition experiment--
first ignition experiment.
    Mr. Calvert. One other quick question. President Obama has 
indicated he doesn't intend to pursue Yucca Mountain as a long-
term repository for high-level waste. And as you know, Yucca is 
today designated by law as that high-level waste repository.
    The budget request includes $98.4 million for defense 
nuclear waste disposal. Why does the budget request include 
this funding, given the president indicated he does not intend 
to pursue Yucca Mountain?
    Captain D'Agostino. Well----
    Mr. Ryan. Did you think you would get away without asking a 
question about Yucca Mountain, Mr. Chairman?
    Captain D'Agostino. Well, recognizing I am the president's 
representative here, this is not my program. But, well, the 
approach the secretary has put forth is to bring together a 
group of people to address the high-level waste question.
    I talked to the secretary about the NNSA's implications to 
the state of Idaho, if you will, on what we do with the new 
naval reactors material that we have in Idaho. And the ultimate 
disposal path is important for the state.
    So, you know, my sense is, when talking to the secretary, 
is that our approach is to bring together this blue-ribbon 
panel of people. I have provided some names of folks that I 
feel from essentially the national security side of this 
problem to add to that group, because it ultimately has to be 
an integrated solution.
    Mr. Calvert. Well, I know, in the interest of time, this 
waste, as you know, continues to accumulate.
    Captain D'Agostino. Right.
    Mr. Calvert. And it in itself is a national security 
problem. And I would hope that the committee can pursue this 
down the road, but there aren't very many places to put this 
waste, as you know, and it is certainly a political issue that 
you probably don't want to get involved in.
    But thank you, Mr. Chairman. I appreciate it.
    Mr. Frelinghuysen. If the gentleman would yield----
    Mr. Calvert. I yield.
    Mr. Frelinghuysen [continuing]. On the NIF, the amount of 
money for NIF is maintained at the same level. Is that right?
    Captain D'Agostino. Yes, sir, that is right. What we did 
was--our previous----
    Mr. Frelinghuysen. But that comes from an overall directed 
stockpile, you know, account, doesn't it?
    Captain D'Agostino. It comes from two accounts. One is the 
experiment that the directed stockpile account would fund. The 
other one is some of the base operations that is in the ICF 
line.
    Mr. Frelinghuysen. It sort of gets back to my initial 
comments, you know, that that fund has been reduced, I think, 
what, by $76 million?
    Captain D'Agostino. The DSW?
    Mr. Frelinghuysen. Yes.
    Captain D'Agostino. Directed stockpile work account has 
been reduced, some of it as a result of completion, nothing to 
do with NIF, but of the B61 life extension work that is 
finished up in fiscal year 2009 and does not exist in that 
particular LEP. In 2010, we are starting another B61 activity.
    Also, there are some increases in the DSW account for 
dismantlement. So it ends up being----
    Mr. Frelinghuysen. So is there or is there not an impact 
on, you know, what the work that needs to be continued to 
dismantle the weapons?
    Captain D'Agostino. There is actually an increase in the 
wet work to be done to dismantle weapons, not by a tremendous 
amount. It is about a $4 million increase after the comparables 
have been done.
    And on the NIF, we undertook some changes, my organization 
did, in the last few months to move resources into the science, 
into the NIF account in order to make sure that we weren't 
continuing to decrease.
    The trend we had was not--we were not on the right trend as 
far as science and technology. And this budget serves to stem 
that trend and stop it from getting worse.
    Mr. Frelinghuysen. I thank the gentleman for yielding.
    Captain D'Agostino. Thank you, sir.
    Mr. Frelinghuysen. Thank you.
    Mr. Visclosky. [OFF MIKE]
    Mr. Ryan. You would never do that, Mr. Chairman. I know.
    Mr. Visclosky. [OFF MIKE]
    Mr. Ryan. I have a couple of quick questions and one that I 
would probably be willing to submit.
    One of the things I want to talk to you about, the 
president campaigned changing the way government runs and 
making it run more efficiently. And I know that was a very 
important component of his campaign for a lot of people who 
helped put him in office, and I think it is our responsibility 
to help kind of further that agenda.
    I want to talk to you about commodity procurement. I want 
to talk to you about third-party financing. And I want to talk 
to you about horizontal combination of contracts.
    The first is the commodity procurements. You know, there is 
a lot of respects where each site has different requirements, 
but there are some opportunities. One of the examples, the 
armor-piercing ammunition for protective forces.
    The ammunition is the same, but each site buys their own in 
small lots now, which increases the cost, unlike the Department 
of Defense, that buys it in huge quantities.
    Is there any reason why you can't purchase that jointly? 
And are there other opportunities where we can do that? I think 
this is low-hanging fruit. This is stuff we can take of.
    Captain D'Agostino. Yes, sir. Absolutely. You hit the nail 
right on the head.
    We had four strategies for moving forward into the future. 
The first one was change the--transform the stockpile. Second 
was transform the infrastructure that supports that. The third 
one you are referring to is operate in a more integrated 
fashion, change the way we do business, in other words.
    Brad Peterson has looked at not just the ammunition, but on 
the protective vests, the equipment that the organization uses. 
As you probably know, we have different models of approaches on 
security contracting, and that has led to a lot of homegrown 
solutions across the complex.
    Brad Peterson is--because I am going to be--he knows this 
is coming--is pushing towards, how does he consolidate not just 
the equipment purchases, but have more common training, you 
know, the cognitive ops protocols? Because heaven forbid we 
have to move security forces around the country to take care of 
a particular problem, but if we have to, we want them to be one 
unit, in effect.
    Mr. Ryan. Can you provide us a list of 5 or 10 or 15, you 
know, opportunities that we have to push this along?
    Captain D'Agostino. Absolutely. I would be happy to, 
because we have a good list for you.
    Mr. Ryan. I appreciate that. And then, quickly, the third-
party financing, as far as Y-12, for example. You have two 
administrative buildings built with outside funding and then 
leased back.
    Captain D'Agostino. Right.
    Mr. Ryan. And, you know, we are going to have to pay for 
that at some point. I know it diminishes your upfront costs, 
but it seems like we would pay more in the long run. Is that 
true or not true? And what is to be gained by the current way 
of doing it?
    Captain D'Agostino. What is to be gained--to answer your 
question on the Y-12, the exact numbers, I would like to take 
that for the record.
    I do know we have looked at 20- and 25-year looks at the 
resources requirement and felt that the business case worked 
out well. There are probably two main gains, if you will, as a 
result of using this approach versus having the government go 
through a traditional government procurement process.
    One is speed. And there is an example. We will provide you 
the details on the difference and time at Y-12.
    But the other one is a little bit more subtle and, frankly, 
you know, I would approach the following way. Particularly in a 
world when we can't predict exactly where we are going with 
respect to the size of our infrastructure, how changes that 
future presidents may make may end up shaping our 
infrastructure, you know, there is a part of me that says, 
``Why would I want to, you know, buy a liability, a 50-year 
liability on a big building if I think I might need it for the 
next 20 years and I can get out of it, and as the stockpile 
gets smaller or as the requirements change?''
    And there is a real opportunity, frankly. This doesn't 
relate to Y-12, but maybe at the Kansas City plant, as we look 
forward to doing this. You know, could things change enough so 
that, 20 years from now, we may not need it?
    Well, the third-party finance approach provides an elegant 
way for the government to reduce its liability in a way--and 
work with the private sector in a way that is kind of nice.
    I am attracted by that benefit. I would be happy to give 
you some details for the record on the other question, sir.
    Mr. Ryan. Okay, thank you.
    We have to go vote.
    Mr. Visclosky. We will be back. We have two subsequent 
votes, 5 minutes each, so it shouldn't be that long. And, 
obviously, we have refreshments up here. We have coffee, Mr. 
Baker.

[GRAPHIC] [TIFF OMITTED] T4227A.058

[GRAPHIC] [TIFF OMITTED] T4227A.059

[GRAPHIC] [TIFF OMITTED] T4227A.060

[GRAPHIC] [TIFF OMITTED] T4227A.061

[GRAPHIC] [TIFF OMITTED] T4227A.062

[GRAPHIC] [TIFF OMITTED] T4227A.063

[GRAPHIC] [TIFF OMITTED] T4227A.064

[GRAPHIC] [TIFF OMITTED] T4227A.065

[GRAPHIC] [TIFF OMITTED] T4227A.066

[GRAPHIC] [TIFF OMITTED] T4227A.067

[GRAPHIC] [TIFF OMITTED] T4227A.068

[GRAPHIC] [TIFF OMITTED] T4227A.069

[GRAPHIC] [TIFF OMITTED] T4227A.070

[GRAPHIC] [TIFF OMITTED] T4227A.071

[GRAPHIC] [TIFF OMITTED] T4227A.072

[GRAPHIC] [TIFF OMITTED] T4227A.073

[GRAPHIC] [TIFF OMITTED] T4227A.074

[GRAPHIC] [TIFF OMITTED] T4227A.075

[GRAPHIC] [TIFF OMITTED] T4227A.076

[GRAPHIC] [TIFF OMITTED] T4227A.077

[GRAPHIC] [TIFF OMITTED] T4227A.078

[GRAPHIC] [TIFF OMITTED] T4227A.079

[GRAPHIC] [TIFF OMITTED] T4227A.080

[GRAPHIC] [TIFF OMITTED] T4227A.081

[GRAPHIC] [TIFF OMITTED] T4227A.082

[GRAPHIC] [TIFF OMITTED] T4227A.083

[GRAPHIC] [TIFF OMITTED] T4227A.084

[GRAPHIC] [TIFF OMITTED] T4227A.085

[GRAPHIC] [TIFF OMITTED] T4227A.086

[GRAPHIC] [TIFF OMITTED] T4227A.087

[GRAPHIC] [TIFF OMITTED] T4227A.088

[GRAPHIC] [TIFF OMITTED] T4227A.089

[GRAPHIC] [TIFF OMITTED] T4227A.090

[GRAPHIC] [TIFF OMITTED] T4227A.091

[GRAPHIC] [TIFF OMITTED] T4227A.092

[GRAPHIC] [TIFF OMITTED] T4227A.093

[GRAPHIC] [TIFF OMITTED] T4227A.094

[GRAPHIC] [TIFF OMITTED] T4227A.095

[GRAPHIC] [TIFF OMITTED] T4227A.096

[GRAPHIC] [TIFF OMITTED] T4227A.097

[GRAPHIC] [TIFF OMITTED] T4227A.098

[GRAPHIC] [TIFF OMITTED] T4227A.099

[GRAPHIC] [TIFF OMITTED] T4227A.100

[GRAPHIC] [TIFF OMITTED] T4227A.101

[GRAPHIC] [TIFF OMITTED] T4227A.102

[GRAPHIC] [TIFF OMITTED] T4227A.103

[GRAPHIC] [TIFF OMITTED] T4227A.104

[GRAPHIC] [TIFF OMITTED] T4227A.105

[GRAPHIC] [TIFF OMITTED] T4227A.106

[GRAPHIC] [TIFF OMITTED] T4227A.107

[GRAPHIC] [TIFF OMITTED] T4227A.108

[GRAPHIC] [TIFF OMITTED] T4227A.109

[GRAPHIC] [TIFF OMITTED] T4227A.110

[GRAPHIC] [TIFF OMITTED] T4227A.111

[GRAPHIC] [TIFF OMITTED] T4227A.112

[GRAPHIC] [TIFF OMITTED] T4227A.113

[GRAPHIC] [TIFF OMITTED] T4227A.114

[GRAPHIC] [TIFF OMITTED] T4227A.115

[GRAPHIC] [TIFF OMITTED] T4227A.116

[GRAPHIC] [TIFF OMITTED] T4227A.117

[GRAPHIC] [TIFF OMITTED] T4227A.118

[GRAPHIC] [TIFF OMITTED] T4227A.119

[GRAPHIC] [TIFF OMITTED] T4227A.120

[GRAPHIC] [TIFF OMITTED] T4227A.121

[GRAPHIC] [TIFF OMITTED] T4227A.122

[GRAPHIC] [TIFF OMITTED] T4227A.123

[GRAPHIC] [TIFF OMITTED] T4227A.124

[GRAPHIC] [TIFF OMITTED] T4227A.125

[GRAPHIC] [TIFF OMITTED] T4227A.126

[GRAPHIC] [TIFF OMITTED] T4227A.127

[GRAPHIC] [TIFF OMITTED] T4227A.128

[GRAPHIC] [TIFF OMITTED] T4227A.129

[GRAPHIC] [TIFF OMITTED] T4227A.130

[GRAPHIC] [TIFF OMITTED] T4227A.131

[GRAPHIC] [TIFF OMITTED] T4227A.132

[GRAPHIC] [TIFF OMITTED] T4227A.133

[GRAPHIC] [TIFF OMITTED] T4227A.134

[GRAPHIC] [TIFF OMITTED] T4227A.135

[GRAPHIC] [TIFF OMITTED] T4227A.136

[GRAPHIC] [TIFF OMITTED] T4227A.137

[GRAPHIC] [TIFF OMITTED] T4227A.138

[GRAPHIC] [TIFF OMITTED] T4227A.139


</pre></body></html>
